Department of Homeland Security
   Ofﬁce of Inspector General


     DHS Contracts With Low Wage Payments 





OIG-10-10                          November 2009
                                                         Office of Inspector General

                                                         U.S. Department of Homeland Security
                                                         Washington, DC 20528




                                   November 5, 2009

MEMORANDUM FOR:              The Honorable Elaine C. Duke
                             Under Secretary for Management


FROM:                        Richard L. Skinner
                             Inspector General

SUBJECT:                     Letter Report: DHS Contracts With Low Wage Payments
                             (OIG-10-10)

We initiated a review of Department of Homeland Security’s contracts with a
predominance of low-wage positions to determine whether the actual wages paid for
subcontracted low-wage work complied with prevailing wage structures and the prime
contractor’s initial wage schedule. The current federal government contracting process,
the Department of Labor’s significant role and responsibilities regarding wages and labor
management, and the absence of subcontractor information maintained in the Federal
Procurement Data System Next Generation, the federal government’s electronic database
for specific contract data, affected our efforts to address this review’s objectives.
Therefore, we reported on the processes and procedures that cover contractor and
subcontractor wage payment activities.

The report does not contain recommendations. DHS agreed with our report and we
incorporated their technical comments.

Consistent with our responsibility under the Inspector General Act, as amended, we are
providing copies of our report to appropriate congressional committees with oversight
and appropriation responsibility over the Department of Homeland Security. The report
will be posted on our website.

Should you have any questions, please call me, or your staff may contact
Carlton I. Mann, Assistant Inspector General for Inspections at (202) 254-4100.
Background
This report presents the results of our review, DHS Contracts With Low Wage Payments.
We conducted this review to address concerns raised by Representative Bennie
Thompson, Chairman, House of Representatives Committee on Homeland Security,
regarding findings in the Center for American Progress December 2008 report, Making
Contracting Work for the United States – Government Spending Must Lead to Good Jobs.
That report concluded that in instances where contractors had subcontracted work in low-
skilled occupation categories, the subcontractors had not followed the wage schedules the
contractors had promised, despite prevailing wage requirements.

Results of Review
The following points summarize the results of contracting information that we identified
during our review, which impacted our ability to determine whether actual wages paid for
subcontracted low-wage work complied with prevailing wage structures and wage
schedules.

       •	 Government contracts for services such as food, guard, maintenance, and
          janitorial services are subject to wage, hour, benefits, safety, and health standards
          under the McNamara-O’Hara Service Contract Act of 1965 (SCA), as amended.1
          Under such contracts, DHS and other federal departments are responsible for
          obtaining the appropriate wage determination(s) from the Department of Labor
          (DOL) and incorporating them into the solicitations and resulting contracts. DOL
          is responsible for not only establishing and maintaining prevailing wage
          determinations, but also for enforcing the payment of prevailing wage rates under
          Government contracts subject to the Service Contract Act.

       •	 During our review, we learned that the DOL has not defined the term “low wage;”
          therefore, based on discussions with Chairman Thompson’s senior staff, we
          focused our contract selections on janitorial and food service occupations, which
          were services specifically identified in Chairman Thompson’s request. From FY
          2006 to FY 2008, DHS maintained three service contracts for janitorial and food
          services; however, information in the contracting database did not indicate
          whether subcontractors performed the services under these contracts. Also, there
          is no indication whether the services provided under these contracts would be
          considered as low-wage services.




1
    41 U.S.C. 351 et seq.



                                              Page 1
Overview of DHS’ Contracting Structure

The Office of the Chief Procurement Officer (OCPO) supports and oversees DHS’
acquisition program. Procurement offices within the following components are headed
by a designated Head of Contracting Activity (HCA) responsible for managing
procurement functions:

     •    Customs and Border Protection (CBP)
     •    Customs and Border Protection’s Secure Border Initiative (CBP SBInet)
     •    Federal Emergency Management Agency (FEMA)
     •    Federal Law Enforcement Training Center (FLETC)
     •    Headquarters Office of Procurement Operations (OPO)
     •    Immigration and Customs Enforcement (ICE)
     •    Headquarters Office of Selective Acquisitions (OSA)
     •    Transportation Security Administration (TSA)
     •    U.S. Coast Guard (USCG)
     •    U.S. Secret Service (USSS)

An OCPO official explained that the chief procurement officer (CPO) has warrant
authority over each HCA, which allows them to execute contracts on behalf of DHS.2 To
ensure accountability of HCAs’ compliance with applicable acquisition and contracting
rules, regulations, policies and procedures, the CPO maintains the ability to revoke an
HCA’s warrant authority. An OCPO official informed us that the CPO has never used
this revocation authority, but has elevated issues to component heads.

OCPO’s Oversight and Strategic Support (OSS) division is responsible for conducting
oversight reviews to ensure compliance with applicable statutes, regulations, and DHS
policies. OSS has contract pricing experts on staff to determine whether contract prices
are negotiated with proper consideration of labor laws, including required wage
determinations.

OCPO’s Acquisition Policy and Legislation (APL) branch develops DHS contracting
policies and processes to ensure compliance with DOL standards. Within APL, an
agency labor advisor serves as the DOL liaison. At the component level, HCAs for CBP,
FEMA, and OPO appointed a labor advisor to serve as point of contact for contract labor
or wage issues.3 For those components that have not designated a labor advisor at the
component level, any labor or wage issues are directed to the component’s policy
branch/division.




2
  Warrant authority is a delegated authorization to enter into contractual relationships and commit the government to 

the expenditure of funds. 

3
  Homeland Security Acquisition Manual (HSAM) 3022.101-170. 




                                                         Page 2
DOL Maintains Authority and Responsibility for Enforcing Service Contract Act
Labor Requirements

DOL’s Employment Standards Administration (ESA) mission is to enhance the welfare
and protect the rights of American workers. ESA’s Wage and Hour Division (WHD)
enforces the prevailing wage requirements of the Davis-Bacon Act4 and the SCA
applicable to federal contracts for construction and services.

Government contracts for services such as food, maintenance, janitorial, and guard and
security services are subject to wage, hour, benefits, safety, and health standards under
the SCA, as amended.5 The SCA requires DOL to set locally prevailing wage rates and
other labor standards for employees of contractors furnishing services to the federal
government.

WHD administers and enforces the SCA by providing compliance assistance and
conducting investigations. WHD is the sole enforcement authority of the SCA, while
DHS plays a supportive role, as shown in figure 1.




4
  The Davis-Bacon Act and related acts apply to contractors and subcontractors performing on federally funded or
assisted contracts in excess of $2,000 for the construction, alteration, or repair (including painting and decorating) of
public buildings or public works. Under the Davis-Bacon Act and related acts, contractors and subcontractors must pay
their laborers and mechanics employed under the contract no less than the locally prevailing wages and fringe benefits
for corresponding work on similar projects in the area.
5
  The SCA gives labor standards protection to employees working under contracts and subcontracts for federal
agencies. It requires that, for contracts more than $2,500, contractors pay their employees, at a minimum, the wage
rates and fringe benefits that the DOL determined to be prevailing in the locality where the contracted work is
performed.



                                                         Page 3
                                    Figure 1. Roles of WHD and DHS

                          Role of WHD                                         Role of DHS

          Serves as the enforcement authority of                Makes initial determination of whether
          the SCA requirements for prevailing                   contracted services are under the SCA,
          wages                                                 which requires a wage determination
          Provides SCA compliance assistance to                 Receives SCA compliance assistance
          agencies in determining coverage                      from DOL
          Sets prevailing wage rates and wage                   Obtains wage determinations from DOL
          determinations                                        and includes them in solicitation for
                                                                contract awards
          Reviews inquiries and makes decisions                 Directs wage determination inquiries to
          on wage determination challenges                      DOL

          Determines whether contractors and                    Notifies contractors of requirements to
          subcontractors are in compliance with                 advise workers of their rights
          applicable requirements
          Processes wage complaints                             Forwards wage complaints to DOL

          Initiates and conducts wage                           Cooperates with DOL in investigations
          investigations
          Determines recoverable damages and                    Responds to DOL notifications
          provides agency notifications

          Debars or suspends contractors and                    Reviews DOL list of excluded
          notifies agencies                                     contractors prior to awarding contracts

WHD conducts investigations of potential SCA violations. These investigations are
primarily complaint-driven, but may also be initiated by WHD in response to DOL
strategic plans or other agency initiatives. Contractors are required to provide notice to
workers regarding their wages and benefits, and must post a WHD publication before
contract performance begins. Federal agencies include specific clauses in contracts to
inform the contractor of the labor standards requirements.6

Workers are the primary source of wage complaints to WHD, although contractors,
subcontractors, agencies, or other interested parties may also file complaints. When an
agency receives a wage complaint, it must forward the complaint to WHD on behalf of
the complainant. Typically, a WHD investigation may include a review of wage
determinations; adherence to applicable labor, safety, and health laws; benefits; and
placement of required worker rights notices.

If WHD investigators determine that a prime contractor or subcontractor is in violation of
wage payment standards, the investigators notify the contracting agency of the violation

6
    Federal Acquisitions Regulations (FAR) 22.1018 and 52.222-41.



                                                       Page 4
and the amount of underpayment. The contracting officer is required to withhold that
amount from the prime contractor regardless of whether the prime contractor or the
subcontractor committed the violation.7

DHS Does Not Maintain a Direct Relationship With Subcontractors

In federal government contractual relationships, labor laws apply to both the prime and
subcontractor. The federal government maintains oversight responsibility for the prime
contractor; however, the prime contractor assumes responsibility for subcontractor
activities in support of the prime contract. This limits DHS’ ability to ensure compliance
with entities other than the prime contractor.8

The Defense Contract Audit Agency (DCAA) provides audit-related services for federal
government contracts. Where a contractor has contracts with more than one Government
agency, the Single Audit Act requires that only one set of Government auditors are
permitted to conduct reviews of the contractor’s books and records. That agency is
generally DCAA. Even in those rare instances where DHS is the only Government
agency that has contracts with a particular contractor business segment, DHS relies on
DCAA to perform the audits of the contractor’s books and records, because DCAA has
the audit expertise to perform these reviews.

Wage Information for Contract Workers Is Absent From the Contract Database

The Federal Procurement Data System Next Generation (FPDS-NG) is the federal
government’s electronic database for specific contract data. FPDS-NG includes a field to
indicate when a contract award requires a subcontracting plan; however, the requirement
is only for subcontracts that are required in order to satisfy a specific socioeconomic goal,
and does not include any other specific subcontract information. Additional data about
subcontracts are contained in the Electronic Subcontract Reporting System (ESRS).
However, subcontractor information maintained in the ESRS does not include wage
determinations or any information regarding wages paid to contracted workers.

To obtain a sample of contracts for our review, we asked OCPO to provide (1) open and
closed janitorial and food service contracts with subcontracts awarded during FYs 2006
to 2008, and (2) any such contracts that remained open during the first half of FY 2009,
regardless of when awarded. Data provided showed that from FY 2006 to 2008, there
were only three DHS contracts for janitorial services. No janitorial or food service
contracts remained open during the first half of FY 2009.

The three DHS contracts identified were for janitorial services, totaling approximately $2
million for services performed from FY 2006 to 2008. Information obtained from FPDS­
NG showed that the contracts included a code indicating that a subcontracting plan was
required to satisfy a specific socioeconomic goal.


7
    FAR 52.222-41(k).
8
    FAR 42.505(b)(1).



                                           Page 5
Conclusion

The current federal government contracting process, DOL’s significant role and
responsibilities regarding wages and labor management, and the absence of subcontractor
information maintained in the FPDS-NG impacted efforts to address our review
objectives. Therefore, we have reported on the processes and procedures that cover
contractor and subcontractor wage payment activities; however, we did not include any
recommendations.




                                         Page 6
Appendix A
Purpose, Scope, and Methodology

                   We conducted this review in response to a January 5, 2009, request
                   from Representative Bennie Thompson, Chairman of the House
                   Committee on Homeland Security, regarding concerns over
                   contracting processes in which contractors may have subcontracted
                   work in low-wage occupation categories, but subcontractors had
                   not followed the wage schedules promised by contractors. His
                   request made no specific references to DHS contracts. Our
                   objectives were to (1) review selected DHS contracts with a
                   predominance of low-wage positions, and (2) determine whether
                   the actual wages paid for subcontracted low-wage work complied
                   with prevailing wage structures and the prime contractor’s initial
                   wage schedule.

                   Since DOL has not defined the term “low wage,” we focused our
                   contract selections on janitorial and food service occupations,
                   which were services specifically identified in Chairman
                   Thompson’s request, and designated by his senior staff as types of
                   “low wage” services.

                   To obtain a sample of contracts for our review, we asked OCPO to
                   provide (1) open and closed janitorial and food service contracts
                   with subcontracts awarded during FYs 2006 to 2008, and (2) any
                   such contracts that remained open during the first half of FY 2009,
                   regardless of when awarded. We reviewed and analyzed
                   applicable laws, policy documents, and records governing
                   contracting and related areas. We also interviewed DOL officials,
                   and DHS OCPO officials responsible for contracting and
                   acquisition activities. We conducted our fieldwork from March to
                   July 2009.

                   This review was conducted under the authority of the Inspector
                   General Act of 1978, as amended, and according to the Quality
                   Standards for Inspections, issued by the Council of the Inspectors
                   General on Integrity and Efficiency.




                                      Page 7
Appendix B
Major Contributors to This Report

                   Deborah Outten-Mills, Chief Inspector
                   Annie Glenn, Senior Inspector
                   Lawrence Anderson, Inspector




                                     Page 8
Appendix C
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Information Officer
                      Chief Information Security Officer
                      Chief Procurement Officer
                      OCPO Audit Liaison
                      DHS Audit Liaison
                      CBP Audit Liaison
                      ICE Audit Liaison
                      TSA Audit Liaison
                      FEMA Audit Liaison
                      USCG Audit Liaison
                      USSS Audit Liaison
                      FLETC Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                          Page 9
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
